U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Western Oilfields Supply Company v. Eugene Scalia, Secretary of Labor, et al.
S.Ct. No. 19-1352

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2020,
and placed on the docket on June 9, 2020. The government’s response is due on July 7, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 10, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1352
WESTERN OILFIELDS SUPPLY COMPANY
EUGENE SCALIA, SECRETARY OF LABOR, ET AL.

BYRON JANSEN WALKER
ROSE LAW FIRM
120 EAST FOURTH STREET
LITTLE ROCK, AR 72201
501-377-0351
BWALKER@ROSELAWFIRM.COM

